COMMONWEALTH OF PENNSYLVANIA

OFFICE OF ATTORNEY GENERAL
1600 ARCH STREET
SUITE 300
PHILADELPHIA, PA 19103

JOSH SHAPIRO
ATTORNEY GENERAL

October 22, 2019

Via electronic filing system and regular mail
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

The Little Sisters of the Poor Saints Peter and Paul Home v.
Commonwealth of Pennsylvania, et al., No. 19-431
Donald J. Trump, President of the United States, et al. v.
Commonwealth of Pennsylvania, et al., No. 19-454

Dear Mr. Harris:
I am writing on behalf of Respondents Pennsylvania and New Jersey in the
above matters. Petitioners in both cases seek review of a decision issued by the
Court of Appeals for the Third Circuit on July 12, 2019. The petition for a writ of
certiorari in No. 19-431 was filed on October 1, 2019, and the petition for a writ of
certiorari in No. 19-454 was filed on October 3, 2019. Responses are currently due
by November 1, 2019, and November 6, 2019, respectively.
Pursuant to Rule 30.4, we respectfully request that the time for filing a
response to the petition in No. 19-431 be extended by 45 days, and that the time for
filing a response to the petition in No. 19-454 be extended by 40 days. With the
extensions, responses to both petitions would be due no later than Monday,
December 16, 2019.
These extensions would permit the preparation of responses to each of the
two petitions that respondents believe would be most helpful to the Court. The two
petitions each present multiple questions for this Court’s review, raising different
issues and challenging various aspects of the Court of Appeals’ decision. Due to a

Scott S. Harris
October 22, 2019
Page 2
variety of competing work obligations as well as previously scheduled travel plans,
counsel requires additional time to complete oppositions to the petitions.
Counsel for the Little Sisters of the Poor Saints Peter and Paul Home,
petitioners in No. 19-431, has informed respondents that petitioners consent to a
single 30-day extension but do not consent to the requested 45-day extension.
Counsel for Donald J. Trump, et al., petitioners in No. 19-454, has informed
respondents that petitioners consent to a single 30-day extension but do not consent
to a longer extension.
Thank you for your attention to this matter.
Respectfully submitted,

Michael J. Fischer
cc:

Mark Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW, Suite 700
Washington, D.C. 20036
Noel Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530

